<html>
<title> - I&A RECONCEIVED: DEFINING A HOMELAND SECURITY INTELLIGENCE ROLE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
    I&A RECONCEIVED: DEFINING A HOMELAND SECURITY INTELLIGENCE ROLE 

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON INTELLIGENCE, INFORMATION
                 SHARING, AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 24, 2009

                               __________

                           Serial No. 111-36

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                    

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

54-224 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ------                                

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     Jane Harman, California, Chair
Christopher P. Carney, Pennsylvania  Michael T. McCaul, Texas
Yvette D. Clarke, New York           Charles W. Dent, Pennsylvania
Ann Kirkpatrick, Arizona             Paul C. Broun, Georgia
Al Green, Texas                      Mark E. Souder, Indiana
James A. Himes, Connecticut          Peter T. King, New York (Ex 
Vacancy                                  Officio)
Bennie G. Thompson, Mississippi (Ex 
    Officio)

                     Michael Blinde, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     2

                                Witness

Mr. Bart R. Johnson, Acting Under Secretary, Office of 
  Intelligence and Analysis, Department of Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5


    I&A RECONCEIVED: DEFINING A HOMELAND SECURITY INTELLIGENCE ROLE

                              ----------                              


                      Thursday, September 24, 2009

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman [Chair 
of the subcommittee] presiding.
    Present: Representatives Harman, Carney, Kirkpatrick, 
Himes, McCaul, Dent, and Broun.
    Ms. Harman. The subcommittee will come to order.
    The subcommittee is meeting today to receive testimony on 
the on-going efforts to focus the intelligence and information-
sharing missions of the Office of Intelligence and Analysis, 
I&A, and to formulate an organizational strategic plan 
supporting both these missions. The hearing today is entitled, 
``I&A Reconceived: Defining a Homeland Security Intelligence 
Role.''
    Mr. Johnson, in your excellent testimony in June, you said, 
``Given the No. 1 responsibility of DHS is preventing 
terrorism, the primary mission of I&A is to be the recipient 
and developer of intelligence that creates the kind of 
situational awareness that we need to stop a terrorist plot and 
save lives.''
    I applauded, in fact we all applauded, an I&A mission that 
is based upon a two-way information-sharing system with State, 
local, and Tribal and private-sector partners, creating a 
talented analytical core at I&A, improving coordination among 
DHS components with regard to intelligence, and assuring that 
all these efforts respect the civil rights, civil liberties, 
and privacy of citizens.
    While I recognize that guiding principles for an 
organization serve a valuable purpose, I&A's history shows us 
that simply articulating these principles is not enough to 
drive its organizational mission, strategy, and function to a 
successful outcome. So, this hearing is to drill down to 
understand what I&A is doing and will do operationally to 
implement the principles you ably articulated in June.
    Many of us have great confidence that your background and 
experience equip you uniquely to realize I&A's potential. In 
June, I asked you how I&A could make our homeland safer. The 
``how,'' Mr. Johnson, is why we are here today.
    Today, I hope you will discuss the new ``how'' of I&A: How 
are you going to accomplish the I&A mission and the 
expectations you raised in your June testimony? What progress 
have you made? Where have you encountered challenges? How can 
this subcommittee help you address these challenges? As we have 
repeatedly said, we want to be your partner, not your 
adversary, in these endeavors. How are you coordinating your 
efforts, your vision, and mission, your supporting strategic 
plan and corresponding metrics with the other elements that 
contribute to detecting and disrupting those who might 
potentially do us harm?
    This committee is mindful, as no doubt is the American 
public, of the widely reported cross-country terrorism 
investigation into a possible al Qaeda cell. My take--and I 
will not reveal any information received on a classified 
basis--is that our intelligence community is playing the 
critical role in uncovering the alleged plot and continues to 
work in close coordination with law enforcement at all levels 
in the on-going investigation.
    I know, Mr. Johnson, that you are playing a role and that 
your organization is playing a role. I want to congratulate you 
for that role in this effort.
    Welcome back. This subcommittee needs you to succeed. Our 
Nation will be safer if you do.
    I now yield 5 minutes to the Ranking Member, Mr. McCaul, 
for an opening statement.
    Mr. McCaul. I thank you, Madame Chair.
    Let me first start out, Mr. Johnson, by saying thank you. 
The briefing that you provided both Ms. Harman and myself and 
the Chairman and Ranking Member of the full committee on the 
events of the past several days concerning the event in New 
York with the plot, potential terrorist plot, was not only 
helpful and informative to us but, I think, a great act on your 
behalf to come forward and keep us in the loop, if you will. I 
was very impressed by that, and I think I speak for the whole 
committee when I say that. We haven't always had that kind of 
cooperation in the past, and let me say you are starting out on 
a great note with this committee.
    Homeland intelligence and information sharing is obviously 
critical to our efforts in combating terrorism, securing our 
borders, ensuring our airport, seaports, and border crossings 
all have the information they need to stop the illegal 
activity. As events of the past 10 days in New York, the city 
of Denver, Colorado, illustrates, the threat remains very real, 
and information sharing between agencies is vital.
    In this case, the case that you briefed us on, information 
provided by Customs and Border Protection show that Mr. Zazi 
spent roughly 5 months in Pakistan training with al Qaeda in 
2008 and 2009. Had CBP never possessed that information that he 
traveled to Pakistan and back to the United States or, even 
more important, if CBP had not shared that information, there 
is a chance that Mr. Zazi could have escaped suspicion and 
could have continued his efforts.
    Let me just say again that I commend you in what you are 
doing, and I applaud your efforts and the success of thwarting 
what could have been a potential attack in New York.
    Today's hearing will examine a new strategic vision for the 
Department of Homeland Security's Office of Intelligence and 
Analysis. Since the Department was created in 2003, the Office 
of Intelligence and Analysis has undergone various 
reorganizations. The office has worked during this time to 
determine exactly what its role should be within the 
intelligence community and how to best support its various 
customers at the Federal, State, local, and Tribal levels.
    I look forward to hearing from you on your plan and your 
vision for the strategic plan for I&A.
    I am also interested in hearing your thoughts and ideas for 
fusion centers. As we discussed in the June hearing, long-term 
funding for these fusion centers is of critical importance. I 
look forward to working with you in the future, and the 
Department, to ensure that these fusion centers have the 
resources they need to provide and fulfill this critical role.
    Last, I hope to hear from you, Mr. Johnson, on what this 
subcommittee and Congress can do to help you and your office to 
continue to mature and maintain a lasting role in protecting 
our homeland.
    With that, I yield back to the Madame Chair.
    Ms. Harman. Thank you, Mr. McCaul.
    Under the committee rules, other Members are reminded that 
opening statements may be submitted for the record.
    I now welcome our witness this morning. Bart Johnson is the 
Acting Under Secretary for the Office of Intelligence and 
Analysis at the Homeland Security Department.
    Prior to his May 18, 2009, appointment, Mr. Johnson served 
as the Director of Homeland Security and Law Enforcement at the 
Office of the Director of National Intelligence. His work 
focused on bridging the intelligence community with Federal, 
State, local, and Tribal customers.
    Before this, Mr. Johnson served as a colonel with the New 
York State Police. He possesses over 30 years of law 
enforcement experience, a credential that I think all Members 
of this subcommittee think is a critically important credential 
that he brings to his current work.
    He has now been at I&A for just over 4 months, and we are 
looking forward, as I said, to hearing how it is going.
    Your testimony in June, Mr. Johnson, drew a ``wow'' from 
our Chairman, Mr. Thompson, who was in attendance. So that sets 
the bar fairly high. We are now anxiously awaiting your summary 
for 5 minutes, and after that we will each ask you some 
questions.
    Mr. Johnson, the floor is yours. Without objection, I ask 
that your full statement be inserted in the record.

STATEMENT OF BART R. JOHNSON, ACTING UNDER SECRETARY, OFFICE OF 
   INTELLIGENCE AND ANALYSIS, DEPARTMENT OF HOMELAND SECURITY

    Mr. Johnson. I just want to thank you for your very obvious 
support, Madame Chair, Ranking Member McCaul, and all the other 
distinguished Members of this subcommittee.
    It is good to be back. It has been a very, very busy 
summer. I will be outlining some of the steps that we have 
taken in hopefully some very meaningful ways and really try to 
lay out what we are going to do next.
    Basically, the vision can be summed up by saying this: I&A 
will be the premier provider of homeland security intelligence 
information products to our State, local, and Tribal customers, 
of which there are about 800,000 law enforcement officers 
putting their lives on the front lines each and every day.
    To do that, we are going to be leveraging, not replicating 
or duplicating, what is already out there. By ``leveraging,'' I 
mean the Office of Director of National Intelligence, the 
National Counter Terrorism Center, the FBI, and the other 
intelligence community agencies that are out there and who 
possess a considerable amount of information and intelligence. 
We are going to do that all with a mindful eye to privacy, 
civil rights, and civil liberties.
    Since my still seemingly brief 16 weeks at the helm of 
Intelligence & Analysis, I have been very impressed by the 
support of not only all of you, but Secretary Napolitano. 
Having been a Governor from Arizona, she understands it and 
really has articulated the importance of getting the 
information to the people that need it, in the format that they 
need it, so they can operationalize it.
    I also appreciate the positive feedback that I continue to 
receive from my prior colleagues, who are still my current 
colleagues, in the State, local, and Tribal.
    So to get down to what we have actually done in that 
regard, our steps have taken to empower our customers to be the 
drivers of our intelligence products. So, in other words, we 
are listening to and being led and driven by the requirement 
needs of our partners. Also, as I said, ensuring the privacy 
and civil liberties of others; optimizing and streamlining I&A 
production, dissemination, and process. So, in other words, a 
production plan as to what we are going to produce and why we 
are going to produce it. Obviously, increase the coordination 
of our component agencies, to include CBP and ICE, where that 
wealth of information and knowledge resides. Interacting with 
the intelligence community; I met with Director Blair the other 
day, and he is very, very supportive of what we are trying to 
do within I&A. Also, to further develop the core intelligence 
capabilities and training with, once again, Dr. Peter Lavoy of 
the ODNI, to learn from their experiences that they have.
    These will allow us, hopefully, to be the premier provider 
of homeland security and intelligence and other information, 
strengthen our existing partnerships which are critical to our 
success, and then operate in a single integrated team.
    Also, the biggest thing is, and you pointed out, Chair, is 
the enabling of a performance-based process to hold people 
accountable for the metrics as we go forward so we can see if 
we are succeeding, not succeeding, and really make midcourse 
adjustments as we go forward.
    So what have we done? The State and local privacy program 
offices, with Chet Lunner, Rob Riegle, we have deployed upwards 
to about 45 I&A reps in the field. We have 10 others in 
process. We have received considerable accolades about the 
national-level exercise of 2009, as it relates to the 
information sharing. But, then again, some gaps were also 
identified, about more need of connectivity and tear lines, 
more working to reconcile those types of efforts as we move 
forward.
    I shared in my written testimony a goal of the Secretary to 
create a program management office, so not only I&A assets and 
equities are being brought to bear, but Department-wide 
equities, in full accordance with the 2007 Implementing the 9/
11 Commission Act as we go forward.
    Additionally, as it relates to analysis, as I mentioned, we 
need to be better. I have always, over the past 2 weeks in 
particular, realized the breadth of knowledge and experience 
and devotion to the mission that is possessed there. There are 
a lot of great people there. I really want to take it to the 
next level and export that level of interaction to the field on 
a more regular basis.
    As it relates to the two-way flow of information, the 
suspicious activity reporting that is going on, really harvest 
that information at the street level, integrate it with the 
intelligence community information, and vice versa, pass it 
downwardly to the State and locals from the intelligence 
community.
    In closing, you have my full commitment that we have 
realigned our operations, refocused. Now it comes to the proof 
of developing the strategy, which will be done by the end--I 
was told October 15, and then developing that action plan, the 
implementation plan, the performance objectives to go along 
with that strategy as we move forward.
    I really appreciate this opportunity to appear before all 
of you at this time. Thank you, ma'am.
    [The statement of Mr. Johnson follows:]
                 Prepared Statement of Bart R. Johnson
                           September 24, 2009
                              introduction
    Chair Harman, Ranking Member McCaul, and distinguished Members of 
the subcommittee, thank you for the opportunity to appear before you 
today to discuss the new strategic vision for the Department of 
Homeland Security's (DHS) Office of Intelligence and Analysis (I&A), 
and our recent efforts to align its intelligence and information 
sharing functions to advance the mission of the Department. I am 
pleased to report our progress to you.
    On May 18, 2009, I was honored to be appointed the Principal Deputy 
Under Secretary for I&A by Secretary Janet Napolitano, and am currently 
serving in the capacity of Acting Under Secretary and Chief 
Intelligence Officer (CINT) for DHS. In the 16 weeks since my 
appointment, I&A has made great strides in supporting the Secretary's 
priorities and further developing a robust, integrated intelligence 
capability for the Department.
    During my short time in this position, I have benefited greatly 
from many meetings and exchanges with you, distinguished Members of 
this subcommittee, and other Members of Congress. I was especially 
pleased to appear before this subcommittee in June to discuss the 
President's fiscal year 2010 budget request for DHS I&A. During that 
hearing, and in follow-up discussions, I gained invaluable insights 
into Congress' perspective on the challenges and opportunities facing 
I&A.
    DHS I&A was established to meet the critical homeland security 
intelligence and information needs of customers not previously 
recognized as stakeholders by the national intelligence hierarchy--our 
State, local, Tribal, and private sector partners. We are still a 
maturing organization, developing relationships with new customers, and 
doing so in a field that was virtually nonexistent before Sept. 11, 
2001. We have much work ahead of us as we continue to improve and 
perfect our performance.
    Since I came on board, I&A has started laying the groundwork for 
future success by assessing its efforts and adjusting, as warranted, to 
successes, failures, and changing circumstances. This continuous 
process will be a hallmark of the organization for the foreseeable 
future. I&A's partnership with the Congress has helped facilitate these 
refinements, enabling innovation, and optimizing the organizational 
structure to best fulfill I&A's broad mission responsibilities. In 
addition, I am committed to ensuring that all of I&A's efforts protect 
the privacy, civil rights, and civil liberties of our citizens.
    Today, I will highlight the critical steps I&A has taken to 
incorporate Congressional insights into I&A's refocused way ahead, as 
well as provide details on our progress to date. While this strategic 
vision does not comprise a detailed strategic plan for I&A, a formal 
strategic plan is being developed and will be forthcoming. I&A senior 
leadership has made significant progress in bolstering I&A's focus and 
efficacy. It is my main priority to expand upon those successes. I&A 
senior leadership, including myself, will be accountable for meeting 
the benchmarks in the strategic plan so that Congress will be able to 
assess our progress.
                        the i&a strategic vision
    As Secretary Napolitano has publicly stated, the No. 1 
responsibility of the Department is combating terrorism. This is the 
main reason Congress created DHS, combining the missions, functions, 
and personnel of 22 legacy agencies into one department. To that end, 
the primary mission of I&A is to be the recipient of information and 
developer of intelligence, in coordination with the Federal Bureau of 
Investigation (FBI) and other interagency partners, providing first 
preventers with the situational awareness needed to prevent a terrorist 
plot. I&A is charged with leading Departmental efforts to provide this 
kind of intelligence and information in a functional, useable form to 
State, local, Tribal and private sector partners--and getting 
functional intelligence and information back to national intelligence 
and law enforcement users--on a real-time basis. I&A is also committed 
to supporting the other broad areas of the Department's responsibility: 
Securing our borders; ensuring smart and tough enforcement of our 
immigration laws; preparing for, responding to, and recovering from 
disasters; unifying and maturing the Department into ``One DHS''; and 
protecting the Nation's critical infrastructure.
    I&A's overarching vision in this regard is to be the trusted leader 
in meeting our Nation's homeland security intelligence needs. This 
vision drives our core focus of strengthening the Department's and our 
partners' ability to protect the homeland by accessing, integrating, 
analyzing, and sharing timely and relevant intelligence and 
information, while preserving civil liberties and privacy. Accordingly, 
I&A's primary customers are clear: The Secretary; State and local 
fusion centers and State, local, territorial, and Tribal authorities; 
Department components; the private sector; the intelligence community 
(IC); and other Federal departments and agencies.
    During my last appearance before this subcommittee, I laid out 
several guiding principles for I&A to attain this vision: we must 
provide the Secretary with the informed and objective intelligence and 
information needed to make policy and planning decisions about 
Department priorities; we must share information with our State, local, 
and Tribal partners; we must foster a more coordinated DHS Intelligence 
Enterprise (IE); and we must rigorously protect the privacy and civil 
liberties of the people we serve. I also pledged at that hearing that I 
would come back to you with a framework for how I&A will meet these 
important priorities. I am pleased to report that in the past few 
months, I&A has made substantial progress in defining priority 
missions, improving management processes, and determining the best 
structure for I&A to meet its priorities. These high-level principles 
mark an important starting point and will drive I&A's continuing 
evolution toward establishing best practices and a formal strategy, 
which observers inside and outside the Department will be able to use 
to assess progress.
    In consultation with Department leadership and our State, local, 
and Tribal partners, I&A has further refined its guiding principles 
into several new strategic goals. These will, in turn, drive the more 
detailed mapping, planning, and assessing work in the months ahead.
    I&A's strategic goals are likewise driven by the priorities of the 
President, including the National Strategy for Information Sharing and 
the National Intelligence Strategy, as well as Secretary Napolitano's 
mission priorities for the Department. They are further informed by the 
Department's on-going Quadrennial Homeland Security Review (QHSR) and 
the many elements of the Secretary's DHS Efficiency Review and One DHS 
Initiative. I&A's strategic goals conform to the Homeland Security Act 
of 2002, the Intelligence Reform and Terrorism Prevention Act of 2004, 
the Implementing Recommendations of the 9/11 Commission Act of 2007, 
and all other relevant statutes and directives of the Congress.
    The strategic goals can currently be summarized as follows:
  <bullet> Goal 1.--Be the premier provider of homeland security 
        intelligence, which entails building, supporting, and 
        integrating a robust information-sharing capability focused on 
        getting intelligence and homeland security-relevant information 
        to those who need it, when they need it.
  <bullet> Goal 2.--Strengthen existing partnerships and forging new 
        ones.
  <bullet> Goal 3.--Operate as a single integrated team focused on 
        mission and customers.
  <bullet> Goal 4.--Enable the mission by maximizing performance and 
        accountability, including protecting privacy, civil rights, and 
        civil liberties.
    These goals, in turn, are reinforced by newly promulgated 
organizational values: Integrity, respect, customer service, continuous 
improvement and learning, and leadership.
    Having described the highest-level guiding priorities for I&A, I 
will now describe the specific steps that will translate these goals 
into an organizational reality.
                     executing the strategic vision
    The new direction of I&A is dictated by the needs of the Department 
and of our partners, and we need to be prepared to implement concrete 
initiatives, aligned to the I&A goals, to upgrade our business 
operations and better meet the Secretary's priorities for the 
Department and I&A specifically. To this end, I have directed that any 
I&A realignment must demonstrate how it will enhance I&A's ability to 
fulfill its strategic goals. I want to make clear that these goals 
drive the organizational change necessary for I&A's future success.
    At the first I&A senior leadership meeting that I held in June 
2009, my leadership team and I reached consensus on the need for I&A to 
realign capabilities and resources to better meet mission priorities. 
The discussion was interactive and productive, and primarily focused on 
the need to build on success, identify areas that need more focus, and 
establish a collaborative atmosphere.
    We were unanimous in our belief that changing the organization to 
better meet the mission was necessary, but that any change should be 
well-informed, based on sound reasoning, and the result of a truly 
deliberative process.
    I will now review some of the key initiatives and reforms underway 
in four different areas for which I&A has major responsibility: Our 
State and Local Fusion Center program, our analysis processes, our 
management practices (and the new Plans, Policy, and Performance 
Management element charged with streamlining I&A processes), and 
Operations.
Support to State and Local Fusion Centers
    One of the primary reasons for I&A's existence is to strengthen the 
sharing and dissemination of useful intelligence and information 
between the Federal Government and our State, local, Tribal, and 
private sector partners. I take this responsibility seriously, and it 
is infused into the I&A strategic goals. I&A will provide increasingly 
functional and useable intelligence and other information to these 
partners. Fusion centers are and will continue to be the critical 
delivery vehicle for this intelligence.
    As Secretary Napolitano has said, while a great deal of information 
sharing is occurring today--among and between agencies and departments 
at all levels of government--the key for protecting the homeland from 
attack is disseminating useable intelligence and information to our 
State, local, Tribal, and private sector partners, getting similar 
intelligence and information back from those partners for analytic work 
by I&A and the IC, and ensuring this two-way exchange happens on a 
real-time basis.
    Our efforts to date have been substantial and include unprecedented 
outreach by I&A. In June, the intelligence officer assigned to the 
Arizona Counter Terrorism Information Center (ACTIC) worked with its 
Terrorism Liaison Officer Program to solidify ACTIC's partnership with 
the Tohono O'odham Nation, marking the first formalized information-
sharing relationship between a fusion center and a Tribal partner. The 
Tohono O'odham Nation covers 65 miles of border with Mexico, making it 
a key partner in information sharing related to border threats and 
trends. In addition, I&A assigned two intelligence officers to the 
Oklahoma Information Fusion Center to assist with the recent 2009 
National Level Exercise (NLE-09). Both I&A officers originated from 
fusion centers outside of Oklahoma. Officials from the Oklahoma fusion 
center praised the officers' efforts during NLE-09, in fulfilling key 
roles and educating the fusion center's analysts on DHS products and 
services. As a result, the Oklahoma fusion center looks forward to the 
permanent assignment of a deployed DHS intelligence officer. Similar 
exchanges are occurring at fusion centers across the country. Such 
appreciation and advocacy for the DHS program to support fusion centers 
is critical to sustaining and expanding homeland security partnerships 
with State, local, and Tribal entities.
    There are currently 72 fusion centers up and running around the 
country (a substantial increase from 38 centers in 2006). I&A has 
deployed 39 intelligence officers to fusion centers Nation-wide, with 
another five in pre-deployment training and nearly 20 in various stages 
of administrative processing. I&A will deploy a total of 70 officers by 
the end of fiscal year 2010, and will complete installation of the 
Homeland Secure Data Network (HSDN), which allows the Federal 
Government to share Secret-level intelligence and information with 
State and local partners, at all 72 fusion centers. These fusion 
centers are I&A's primary means for engagement with State and local 
partners. Having spent most of my professional life in the New York 
State Police, I know first-hand how valuable fusion centers are to 
multiplying the effectiveness of our homeland security and law 
enforcement efforts.
    To ensure that we in I&A are doing all we can to meet our goals of 
supporting two-way information flow with State, local, Tribal, and 
private sector partners, the Secretary directed I&A to outline a 
Department-wide initiative to strengthen the baseline capabilities and 
analytic capacity of State and major urban area fusion centers. The 
proposal our office developed articulates that fusion centers must be 
better able to:
  <bullet> Operate at a more consistent level;
  <bullet> Rapidly identify and disseminate information regarding 
        emerging terrorism, criminal, and other homeland security 
        threats; and
  <bullet> Support and enhance a State and urban area intelligence 
        platform for risk-based, information-driven decision-making by 
        State, local, Tribal, territorial, and Federal homeland 
        security and law enforcement officials.
    Central to this proposal is the establishment, at the Secretary's 
direction, of a new Joint Fusion Center Program Management Office (JFC 
PMO). The JFC PMO will lead a unified Department-wide effort to develop 
and implement survey tools to ensure State, local, and Tribal customers 
are provided the opportunity to define and identify the types of 
homeland security-related information they need, and the format in 
which they need it. The JFC PMO will also develop mechanisms, in 
coordination with Federal, State, local, Tribal, and territorial 
authorities, to improve the capability of State and major urban area 
fusion centers to gather, assess, analyze and share locally generated 
and national information and intelligence, in order to provide complete 
pictures of regional and national threats and trends. Department 
intelligence production and dissemination processes, in turn, will be 
streamlined to better support these consumer-driven needs. While I&A 
will manage the JFC PMO on a day-to-day basis, the Secretary has made 
it clear that all relevant DHS components will be involved, and will 
have new responsibilities when it comes to providing coordinated 
support to fusion centers.
    The JFC PMO will be managed by I&A on behalf of the Department and 
staffed by personnel assigned from various components and offices 
across DHS. This entity will leverage the existing Information Sharing 
Governance Board to ensure Department-wide coordination in this effort, 
as well as the capabilities of our other valuable Federal partners, 
such as the FBI. We are readying various implementing documents to make 
this proposal a reality.
    I&A is also supporting the fusion centers by partnering with the 
DHS Office for Civil Rights and Civil Liberties (CRCL) to provide 
training for new and current fusion center analysts. In addition, CRCL, 
the DOJ Office of Justice Programs and I&A are working together to 
create a multifaceted privacy and civil liberties training program to 
support all personnel at the fusion centers.
    Every day across the country, State, local, Tribal, and territorial 
law enforcement and other officials gather information in the course of 
their work of providing emergency and non-emergency services to their 
communities. This information may serve as the first indicator of a 
potential threat to our national security. I&A must have the structures 
and processes in place to ensure complete and accurate analysis of 
threat information to facilitate timely warnings to all our homeland 
security partners to prevent a threat from materializing. I&A's new 
initiatives to support fusion centers across the country will help 
ensure that the needs of State, local, Tribal, and territorial 
governments drive I&A intelligence activities.
Analysis
    I&A has the unique statutory role of providing analytic 
intelligence and information products in a functional, useable form to 
State, local, and Tribal governments and other key customers. A key 
priority for I&A's refocused Analysis element is to align specific 
topics of intelligence analysis to the needs and requirements of core 
customers, and to ensure that the products resulting from that analysis 
are focused, timely, and relevant. Our internal review identified 
terrorism, border security, cyber, counterintelligence, and violent 
extremism as primary areas of analytic focus for I&A.
    After a comprehensive evaluation of I&A's analytic capabilities and 
functions, we determined that I&A needed to strategically realign its 
analytic and production resources and efforts more tightly with the 
priorities of the Secretary and the new National Intelligence Strategy. 
Accordingly, I&A's analysis and production resources will be 
prioritized to:
  <bullet> Realign analytic resources to improve and expand support to 
        our State, local, and Tribal consumer base.
  <bullet> Develop an analytic capability and methodology for assessing 
        Suspicious Activity Reporting data.
  <bullet> Create a centralized analysis group to meet the intelligence 
        and information needs of the Secretary and Department 
        components, including improved coordination and information 
        sharing.
  <bullet> Augment our border security analytic capability.
  <bullet> Strengthen our collaboration and consultation with other 
        producers of intelligence and information products.
    We recognize that I&A should not attempt to be an expert in all 
areas, especially when sound analysis is already being conducted 
elsewhere in the IC. Therefore we will emphasize collaboration with 
interagency partners in some areas, including:
  <bullet> Analysis of Weapons of Mass Destruction.--I&A will maintain 
        a focused, senior in-house expertise and ensure surge capacity, 
        in coordination with the FBI.
  <bullet> Violent Radicalization.--I&A will realign to collaborate 
        with the National Counterterrorism Center and other Federal 
        agencies for substantive reporting on violent radicalization.
  <bullet> Domestic Terrorism.--I&A will work with the FBI and other 
        law enforcement partners to identify analytic and other 
        reporting relevant to our State, local, and Tribal consumer 
        base.
  <bullet> Health Security.--I&A will work closely with the DHS Office 
        of Health Affairs, in addition to the Departments of Health and 
        Human Services and Defense as well as other relevant agencies, 
        to identify analytic and other relevant reporting.
    We will also commence a comprehensive consumer outreach effort to 
make sure what we are producing is what our customers at the State, 
local, territorial, Tribal, and private sectors want, at the time they 
want it, and in the form they need it. This will include leveraging 
best practices at the Office of the Director of National Intelligence 
(ODNI) and elsewhere in production planning and customer service.
    In addition to the realignment of our analytic capabilities and 
functions, I&A is incorporating CRCL and the Privacy Office in the 
review of all intelligence products, including products created by I&A 
analysts working for State, local, and Tribal fusion centers. Lessons 
learned from I&A product review will continue to be incorporated into 
CRCL's fusion center personnel and I&A analyst training programs.
    The dedicated staff of I&A strives every day to provide accurate, 
actionable, and timely intelligence and information to support our 
broad consumer base. Our realignment of I&A's analytic activities is 
designed to adopt systemic intelligence production planning, and to 
fully utilize programmatic funding and personnel investments made 
available by the Secretary's June 2009 decision to end the National 
Applications Office. In short, this new analytic element will maximize 
the impact of our analysis to provide the most value added to our 
primary consumer base.
               plans, policy, and performance management
    I&A is a relatively new organization that is still maturing its 
management and business processes. To build on past success, we are 
realigning disparate activities that were previously dispersed 
throughout I&A under the leadership of a new Deputy Under Secretary for 
Plans, Policy, and Performance Management (PPPM). This will give new 
emphasis to activities that were lower priority in the past, and stands 
up new activities that were unprecedented for the organization. The 
establishment of PPPM demonstrates I&A's commitment to developing and 
implementing fair, transparent and collaborative decision-making 
processes, rationalizing resource allocation to priority missions, and 
assessing whether investments are leading to preferred outcomes.
    I&A continues to foster high standards for accountability, 
collaboration, transparency and respect for normal business planning 
and management behaviors. Although I&A has taken significant steps to 
address some of the organizational gaps that previously existed, more 
work is needed. The establishment of PPPM institutionalizes a unified 
management structure for I&A to transparently develop and implement 
planning and decision-making processes that foster predictable, 
informed, and contextual program planning and management execution. We 
are doing this in coordination with our counterparts in the DHS Office 
of Policy and ODNI, among others.
    This new I&A element will enable more streamlined and integrated 
strategic planning, programming, and budgeting life cycle processes. 
PPPM will further the Department's intelligence mission by providing 
Intelligence Enterprise (IE)-wide management guidance. PPPM's 
responsibilities include developing and unifying applicable strategies, 
plans, and policies using collaborative outreach, advocacy, and 
strategic futures analyses, leading to an integrated DHS IE focused on 
its mission and its customers. PPPM will also develop a detailed I&A 
strategic action plan that will include a mapping of all organizational 
activities and performance management metrics to measure program 
execution and effectiveness. This, in turn, will institute valid 
metrics to measure success and create a systemic cycle that facilitates 
organizational improvement.
    The 9/11 Act amended the Homeland Security Act and created the 
Under Secretary for Intelligence and Analysis (U/SIA). The U/SIA also 
serves as the Department's CINT, with the authority to lead and manage 
the Department's intelligence and information-sharing enterprises. This 
authority is exercised largely through the Homeland Security 
Intelligence Council (HSIC). The HSIC is comprised of all the 
intelligence chiefs in the DHS IE, and serves as the U/SIA's formal 
advisory and decision-making body on Departmental intelligence matters. 
The role of the HSIC will become even more crucial regarding 
implementation of key 9/11 Act authorities. The U/SIA is statutorily 
required to provide the head of each DHS intelligence component with 
guidance on intelligence activities underway in the Department for 
efficacy and mission focus, as well as to present the Secretary with a 
unified recommendation for the further cultivation of a Department-wide 
Intelligence Enterprise. I appreciate the support of the intelligence 
heads that I have received so far and I look forward to working with 
them in the future. I commend the diligent work of the Chair, the 
Ranking Member and the subcommittee for helping us realize these 
intelligence-related authorities, which are so critical to integrating 
the Department's intelligence functions and providing focused, unified 
support to key homeland security partners.
Operations
    Finally, I&A's realigned Operations element will also be well-
positioned to help I&A's refocused mission flourish. Operations 
encompasses missions and program responsibilities formerly housed in 
I&A's Mission Integration element, as well as specific programs 
migrated from what was I&A Analysis and Production. The new Operations 
element will maximize the effectiveness of our knowledge management, 
counterintelligence, mission support and training, collection 
requirements, and external operations programs. The focus of Operations 
will also help to strategically align programs to I&A goals and 
priorities, as well as to achieve programmatic efficiencies.
    The Operations element will better align I&A's information 
technology capabilities with the needs of our analysts and our State, 
local, Tribal, and private sector stakeholders with the information 
they need to keep the homeland safe. This program includes new focus on 
the Homeland Security State and Local Intelligence Community of 
Interest (HS SLIC) web portal, which is an exceptional forum for 
analyzing homeland security-related information and a critical tool for 
information sharing and collaboration between the Department and our 
partners. A new HS SLIC office will receive additional support for its 
program management responsibilities, thereby ensuring that our 
stakeholders have the best system possible for sharing valuable 
homeland security-related information. The Deputy Under Secretary for 
Operations is in the process of refocusing efforts within the Knowledge 
Management Division to make it more efficient and responsive to I&A 
customers.
    Intelligence training is a critical capability that will enable 
fulfillment of I&A's strategic goals, and Operations will build on past 
I&A success in training. I am determined to prevent the ever-increasing 
demand for vital training and professional development services from 
outstripping our ability to deliver, and am therefore increasing the 
size of I&A's intelligence training staff. I&A currently provides a 
core suite of intelligence training courses for a broad spectrum of 
intelligence personnel, including State and local analysts and 
component personnel in the DHS IE. Our entry level Basic Intelligence 
and Threat Analysis Course (BITAC) is the hallmark of our training 
success. We are proud of the level of participation received from 
within the Department, graduating 192 students in 3 years. As a 
testament to this success, we were recently asked by U.S. Customs and 
Border Protection and U.S. Immigration and Customs Enforcement--both 
components of the DHS IE--to train a large cadre of their new hires 
over the next year.
    In addition, State, local, and Tribal law enforcement officers and 
other representatives are able to use applicable homeland security 
grant program funds to participate in BITAC.
    I&A has also established a mentorship program, embedding seasoned 
Government personnel throughout our workforce to help ensure that our 
analysts develop and maintain the analytic tradecraft habits critical 
to the practical application of skills learned in the classroom. This 
program is intended to support the establishment of a culture of 
disciplined analytic work in I&A.
    To better align reporting between our State, local, and Tribal 
partners and the I&A requirements management process, I moved I&A's 
Reports Officer Branch into our new, bolstered Collection Requirements 
Division. This transfer will allow for a more streamlined effort that 
will result in empowering State, local, and Tribal partners to drive 
I&A's intelligence and information products, and expediently providing 
answers to these customers.
    Finally, I&A established a new External Operations Division, which 
has the mission of ensuring management oversight of several high-level, 
interagency outreach programs in which I&A is a participant. These 
include the Single Point of Service program that handles information 
needs transmitted by our State, local, and Tribal partners, and support 
of elements such as the Joint Analysis Group and the FBI's Terrorist 
Screening Center.
                         immediate way forward
    These first steps taken by my leadership team are only a beginning. 
I fully expect that I&A will be able to further refine its organization 
now that our strategic foundation is set. In conjunction with my senior 
management team and I&A functional leaders, I will be directly 
accountable for evaluating our areas of responsibility. We will 
continue to mature our management and business standards; move towards 
more proactive, collaborative, and prioritized planning processes; and 
ensure that all activities align with core I&A missions and goals. I&A 
has commenced a top-to-bottom review of the organization, which when 
completed, will lead to a more efficient, effective, and focused 
organization.
    I&A's efforts to gather, assess, analyze, and share intelligence 
and information will continue to be guided by the dual imperatives of 
protecting the Nation from those who wish to do it harm, and protecting 
our privacy, civil rights, and civil liberties. All discussions and 
efforts to reprioritize I&A resources and capabilities will comply with 
binding strategic guidance, including I&A strategic goals, the National 
Strategy for Information Sharing, the Secretary's priorities, and the 
White House's guidance on fiscal year 2011 investment priorities for 
the Federal Information Sharing Environment. The latter guidance 
includes three specific investment priorities for which I&A has major 
implementation roles: Suspicious Activity Reporting, State and Major 
Urban Area Fusion Centers, and implementation of the Controlled 
Unclassified Information Framework.
                               conclusion
    I appreciate your inviting me to appear before you to apprise you 
of our progress in defining and executing the strategic vision of I&A. 
While our office has taken significant strides, I&A is not a finished 
product, and more time will be required before we are functioning 
optimally. Nonetheless, we are on the right track and have 
strategically aligned the organization to more effectively support core 
customers. Developing the first-ever strategic action plan will be a 
crucial step toward strengthening the strategic alignment of I&A 
activities. We expect to deliver this plan to you by the end of 2009.
    It has been less than 3 months since I appeared before this 
committee and pledged to move swiftly, smartly, and decisively in the 
development of plans to refine I&A's focus. With your support, the 
leadership of Secretary Napolitano, and the fine men and women of I&A, 
I believe that I have honored this pledge. I look forward to keeping 
the committee apprised of I&A's progress as we continue to move 
forward.
    Thank you for this opportunity and I look forward to your 
questions.

    Ms. Harman. Thank you very much.
    This is the second time you have concluded in precisely 5 
minutes. Superb example, Mr. Johnson. We applaud you. All of us 
applaud you. I wonder if we could do it. The Republican side 
doubts it.
    Our questioning will now begin, and I yield myself 5 
minutes for questions.
    Thank you for the thrust of your testimony. I surely agree 
that the mission is to be the premier provider of intelligence 
products to State, local, and Tribal and private-sector 
partners. You have described, in general terms, how you are 
going to do that.
    I have said that your objective is not to create a mini-CIA 
at Homeland, but to do something that will specifically empower 
those in our communities to know what to look for and what to 
do. That is how we thwart a terrorist plot.
    On that subject, and without getting into specifics of any 
on-going investigations, which I will not get into and you will 
not get into, does I&A have a unique role that it can play as 
law enforcement and intelligence communities work to detect, 
disrupt, and dismantle the plans of both networks and 
individuals in the United States who are suspected of seeking 
to harm our country and our citizens? If it does, what 
precisely is that role?
    Mr. Johnson. I believe I&A is in the best position to 
provide that consistent information flow back and forth to 
State, local, and Tribal. I don't believe there is any other 
entity that does that uniformly and as consistently as has been 
done. But, having said that, we even need to do better.
    When you take a look at the information holdings of the 
intelligence community based on past incidents and attacks 
overseas, whether it is Madrid or the London tube bombings, and 
the acquisition of material, the construction of the material, 
the timing of runs of the surveillances, how those attacks are 
carried out, that is the type of information that needs to be 
absorbed by I&A, shared with State, local, and Tribal on a very 
consistent basis, like it has been done over this past week as 
it relates to terrorist tactics, techniques, and plans.
    However, you know, as I said, there is so much more to be 
had. I am sure you are aware of the recent success of gaining 
access to information resident on SIPRNet and that relationship 
that we built with the Department of Defense. This was all 
about criminal activity that is occurring overseas that is 
going to better inform our partners about what type of 
equipment to buy, how they should fund it. But, more 
importantly, the first responders, when they see something that 
appears to be suspicious, what actions, you know, blast radius, 
should you approach it, should you not approach it. It is that 
type of information that I think we have been and we are going 
to provide value added in that regard.
    Ms. Harman. Well, I surely agree with that. But it then 
leads to my other question, which you also mentioned in your 
testimony, and that is ensuring the privacy and civil liberties 
of innocent Americans.
    You said in your testimony that you have provided about--I 
think you said 40 people to State and local privacy program 
offices. I would like you to give us some specific examples of 
things that have happened in your first and last 16 weeks on 
the job that you believe are contributing to the protection of 
privacy and civil liberties. How are you proposing to continue 
or expand those programs?
    Would you specifically mention suspicious activity 
reporting, SARs? Because you mentioned it in your testimony, 
and a lot of folks out and about are very worried that that 
program, which can provide very valuable situational awareness 
to the folks who need to prevent the next attack, could be 
abused.
    Mr. Johnson. Sure.
    As it relates to privacy and civil liberties, I have met 
with Mary Ellen Callahan, the lead for privacy for the 
Department writ large, and also David Gersten of Civil 
Liberties and Civil Rights.
    We have ramped up our training. Our training is mandated. 
We are holding people accountable to, No. 1, make sure they are 
regularly refreshed on it and accountable to take that 
training; also, that training is being exported out to the 
fusion centers to ensure our I&A reps are trained also.
    Ms. Harman. Could you give us a specific example of what 
they are trained about, in 30 seconds or less?
    Mr. Johnson. Sure. As it relates to U.S. persons and non-
U.S. persons, what they are able to collect, what they are able 
to hold, what they can't collect, what they cannot hold, the 
checks and balances associated with that, and the levels of 
review that go through it; in addition to sharing information, 
you know, with the fusion centers.
    In particular, as it relates to the suspicious activity 
reporting, that is something that I did back in 1977 when I was 
in the city of Peekskill. When you make an observation of an 
individual, that you just don't collect information on things 
that don't reach that level of reasonable suspicion. So, in 
other words, something that I could articulate that makes me 
reasonably suspicious, and then I document it.
    What the SAR initiative does with the major city chiefs and 
the IACP, it really formalizes it, trains to it, has 
accountability associated with it. So I believe that it is a 
much better, much improved process than previously existed. In 
fact, we just met on it the other day with the Bureau of 
Justice Assistance, and the evaluation is nearly complete. The 
results, which I really don't have, were moving forward. It 
appears as though it is very, very optimistic.
    Ms. Harman. Thank you. I would like to request on behalf of 
the subcommittee those results, when they are in. Because we 
are very concerned that the program go forward but that it 
protect the privacy and civil liberties of Americans.
    I now yield 5 minutes to Mr. McCaul for questions.
    Mr. McCaul. Thank you, Madame Chair.
    Let me just again reiterate my appreciation, Mr. Johnson, 
for your timely briefing this committee on the events of New 
York and the arrests that took place and the work that DHS 
provided in terms of getting the information and sharing it 
timely to prevent a potential terrorist attack.
    This office came under heavy criticism early in the year, 
actually maybe even before, right as you were getting on board. 
So I am not attributing this to you at all, but I want to know 
what you have done to repair the damage.
    But it came under criticism for warning in a report that 
veterans returning from Iraq and Afghanistan could be recruited 
and radicalized by right-wing extremists to carry out violent 
acts. That caused quite a stir across the country.
    My first question to you is, what have you done to realign 
the Intelligence Office to make sure this doesn't happen again?
    Mr. Johnson. Absolutely. I appreciate very much that 
question.
    As I reported lastly, that was one of the things, that 
first Monday that I started, that I was struck with, to answer 
what occurred, I believe it was on April 17, regarding that 
report. The ODNI shared it with us, an analysis of that report, 
and they found that it was improperly cited, improperly 
sourced. I agreed with that assessment. The analysts that I 
have been dealing with at I&A are much better than that. So I 
am going to subscribe to say that that was an anomaly of a 
process that was not followed.
    But I wasn't willing to just leave that alone. I worked 
very closely with our privacy people and CRCL and created a new 
process that, for example, whenever a U.S. person's name or 
Governmental agency or company is potentially mentioned in that 
report, they get engaged at the front end to make certain that 
we follow the rules and the regulations of the road to ensure 
that something is not improperly released to cause an 
individual or an organization harm that heretofore should never 
have happened.
    Additionally, there is a series of other checks and 
balances as it relates to checking with OGC, the Office of 
General Counsel, if it could involve an on-going investigation. 
Or, for example, if it is going to directly impact on our 
State, local, and Tribal partners, which it normally always 
does, that very unique customer set, it is shared with the 
Interagency Threat Assessment and Coordination Group, as it 
well should.
    We are not leaving that alone. We are training to it, 
actually having examples. I saw them the other day. Tim Martin 
and Larry Jaski are working very hard. If your staffers have 
not been briefed on it, you know, count on them being briefed 
on it. I believe that they will report back to you the comfort, 
hopefully, that you will gain from that briefing.
    Mr. McCaul. Well, thank you. I appreciate your efforts to 
correct the process. My understanding was this report was 
released with little or no vetting in the process, and I think 
hopefully you have put the checks and balances in place to 
ensure that doesn't happen again. I appreciate the opportunity 
to be briefed fuller on that issue.
    Also, I wanted to ask you about an inspector general's 
report in December, that while your office has made 
improvements in supporting fusion centers, there are still 
several problems: Providing adequate and timely information, 
helping to navigate the Department's complex bureaucracy, and, 
finally, that the Department had fallen short in deploying 
intelligence analysts to the fusion centers.
    I note to that end that the Department has announced it 
plans to provide each of the Nation's 72 fusion centers with at 
least one analyst by October 2010.
    I just wanted you to comment on that.
    Mr. Johnson. Certainly.
    Regarding the IG's report, our goal is to really reorient, 
realign. We have already started doing that.
    I met a retired chief from Fairfax County Police Department 
just the other day, and that individual is working with the 
analysis component. They are working with a Dave Sobczyk, 
former commander of Chicago PD, and Ernie Chambers, former 
commander of Las Vegas PD. I met with them as a group. They are 
walking around I&A, integrating themselves with the analysts, 
and making sure they are sharing information back and forth 
about what a law enforcement officer is really like, really 
what they expect. Really, the energy is upticking.
    So I am confident in relying on the criticisms that were 
put forth within the IG report, which I am very aware of and 
sensitive to, that the next time they do an IG report will show 
some improvement.
    Falling back to the discussion I just had with Dr. Peter 
Lavoy with ODNI regarding the assessment, you know, one 
important thing is that they have a rating system on analytical 
products. They were mostly rated as ``good,'' but on the poor 
side of good. The most recent one they did, it was good, really 
relying on good. So I hope to make that ``good'' a high good, 
as it relates to the quality, as the products go forward.
    So I hope that that will continue to prove through that 
interaction, and I want to get more State and locals on-board 
to really turn that whole engine, that I&A engine, into a more 
analytical, meant for the component agencies of State, local, 
and Tribal law enforcement.
    Mr. McCaul. Well, thank you, Mr. Johnson. I appreciate your 
attention to that report.
    I see I have exceeded my 5 minutes, as promised.
    Ms. Harman. Thank you, Mr. McCaul.
    Again, Mr. Johnson, your comments about the way you are 
integrating law enforcement into the activities of I&A are very 
impressive. It is precisely the kind of progress we were 
looking for.
    The Chair now recognizes Mr. Carney of Pennsylvania for 5 
minutes of questions.
    Mr. Carney. I thank the Chair.
    I really thank you, Mr. Johnson, for your testimony earlier 
and, of course, this morning.
    I kind of want to focus a little bit on sort of the 
internal workings around your organization. I understand that 
the State and Local Program Office may be going through a 
period of transition. That is to be expected with any change of 
administration; that is not unusual.
    Are you expecting a change of leadership at the SLPO? If 
so, what are you doing to make sure we don't lose focus during 
the transition?
    Mr. Johnson. I know exactly what you are referring to. One 
of those personnel changes haven't been officially announced. 
But, yes, there is going to be change.
    But be assured, it is not going to disrupt any of the 
activities. I have had several conference calls. Unfortunately, 
I wasn't able to make it out to EPIC last week because of the 
on-going things going on in the District of Columbia here, but 
they are very close to me. I know the majority of them. It is 
not going to be watered down. It is going to be supported. I 
think the activity is going to be increased. That cross-
pollination that I was referring to and the exposure to the 
analysts I think is a very, very good thing.
    SLPO is not going to be subsumed within another operational 
component. It is going to stay just the way it is. The only 
change that is going to be happening is hopefully we are going 
to be standing up that Program Management Office, which is 
going to be on top of the organization and be supportive of the 
State and Local Program Office.
    So, in other words, what the PMO is going to do Department-
wide is going to further support the I&A reps in the field, 
some of whom I have talked to over the past couple of days and 
am very supportive of. So I think it is going to be more 
supportive.
    The only downside is that, when things seem to take a while 
to change, there is uncertainty and unsteadiness. I am doing 
everything that I can through Rob Riegle and Chet Lunner to 
mitigate any of that through those personal conversations.
    I think it is going to be all just fine as we move forward.
    Mr. Carney. What sort of time frame are we looking at for 
new leadership to be announced and to come in? Are you in the 
process of looking now? What sorts of background would you like 
to see in the next person to take over the SLPO?
    Mr. Johnson. A person who really has that cross-cutting 
capabilities to understand the needs of the State, local, and 
Tribal; a familiarity with ops, you know, at the NOC, the 
National Operations Center, so they know what is going on 
there.
    I met with Admiral John Acton. It has been a very, very 
productive and positive relationship to make sure that we are 
speaking with one voice. I have been trying to pull the trigger 
on this for a couple weeks now, and I am still trying to pull 
the trigger. I hope to have that completed within the next 30 
days.
    Mr. Carney. Okay. My concern, and I think some folks share 
it, is that the PMO does not absorb the SLPO. I think we really 
need to make sure that there is a distinction there and that 
one is supportive of the other and doesn't try to usurp its 
authorities and its powers and its duties. You know, we don't 
need that sort of squishiness, as you understand, in the 
organization.
    Let's move on to somewhat of a related point. What is the 
relationship--or have you built better relationships with other 
stakeholders in the city? You know, are you working well with 
the FBI and DNI? You know, you start to grow this relationship. 
How has it matured? Can you characterize that, please?
    Mr. Johnson. Absolutely.
    I met with the Director Blair, the day before yesterday, 
about my own personal performance objectives. I asked him 
straight-up as it relates to Intelligence and Analysis and his 
support. He is very supportive of that aspect and supportive of 
not necessarily Bart Johnson, but the Under Secretary for 
Intelligence and Analysis.
    Behind that comes Dr. Peter Lavoy, Mr. David Shedd, and a 
host of others who are constantly providing support that I am 
very willing to take.
    As it relates to the National Counter Terrorism Center, I 
believe I have an excellent working relationship with Director 
Mike Leiter. I speak to him and have been speaking to him on a 
regular basis. He, too, is supportive.
    We just took on a new individual, Dawn Scalisi, who is 
going to oversee the analysis aspect. She has very strong roots 
within the National Counter Terrorism Center. That is going to 
be helpful.
    As it relates to the Bureau, Mr. Art Cummings, Mr. John 
Pistole, you know Mr. Mike Heinbach. I know them personally, I 
know them well. They, too, have provided their support. I have 
met with Director Robert Mueller. He has been supportive.
    That doesn't even mention the other component agencies 
within the Department of Homeland Security through two meetings 
that I think and I hope have built a strong relationship with 
them. It is mine to lose, quite frankly.
    Mr. Carney. Okay. Well, I am glad to see Roger up to that 
duty then. Thanks.
    No further questions, Madame Chair.
    Ms. Harman. We don't expect you to lose, Mr. Johnson.
    The Chair now yields 5 minutes to Mr. Broun of Georgia.
    Mr. Broun. Thank you, Madame Chair.
    Mr. Johnson, I am personally very excited that someone of 
your background is in this position at I&A and at the 
Department. I look forward to having a tremendous improvement 
in what is going on over there, in my opinion. I congratulate 
you on your appointment. I thank you for being here with us 
today.
    In your testimony, you state that I&A's realigned 
operations element will maximize the effectiveness of your 
knowledge management, your counterintelligence, mission support 
and training, collection requirements, and external operations 
programs.
    One area that I have been particularly disappointed with is 
the counterintelligence at DHS. I am a firm believer that DHS 
is not going to be a respected member of the intelligence 
community or very useful to its customers unless DHS takes 
counterintelligence very seriously. DHS is too large a target 
for foreign intelligence services and for terrorist 
organizations to neglect a vigorous counterintelligence element 
within the program and within DHS.
    Can you elaborate on your testimony? How will the 
realignment affect counterintelligence? How does it fit within 
your own strategic vision?
    Mr. Johnson. Certainly. I appreciate that question.
    As it relates to counterintelligence, that is a world that 
is, not relatively new, but I am not as familiar as other 
people are. Fortunately, once again, through Director Blair and 
some of the studies that he has been conducting regarding 
counterintelligence, I have been leveraging and working very, 
very closely with him and people who have supported him in that 
regard.
    One in particular, Mr.--and I apologize for the first 
name--``Bear'' Bryant, former FBI deputy director, I believe, 
who is very well-versed in that CI arena. So I have already met 
with him and other individuals, to include I have had a 
conversation with Director Louis Freeh on that particular 
topic. I am going to once again leverage their expertise.
    Because I agree with your assessment, without going into 
any other detail, regarding what people want to do, what they 
want to gain access to. We have a responsibility within the 
Department to protect the Department from our adversaries who 
want to get our information. So I understand it. Like I said, I 
don't have the expertise, but I will get the expertise and use 
that expertise.
    So, as it relates to the operations component, you know, 
Jim Chaparro oversees counterintelligence, and he is working 
it, and he is leveraging those same things. I expect to have 
more information and solutions by the end of the month, because 
we are going to be meeting with some of those individuals to 
learn more about what their review revealed and really have 
them really tell us what we need to do better.
    Mr. Broun. Thank you, Mr. Johnson.
    I asked the Secretary about counterintelligence, and I have 
been very disappointed with the responses I have gotten thus 
far. I hope, particularly with your background, that 
counterintelligence will become a much greater priority within 
the Department. I think it is absolutely critical for us to do 
so, to make sure that this country remains one that is secure.
    I am also--I am particularly interested, along with Chair 
Harman, about the protection of civil rights and privacy. I 
would like to see us focus more on the bad guys and not on 
people who are just concerned--who are American citizens and 
also people who are concerned about freedom and believe in very 
limited government.
    So I hope, as you go forward, that we can focus on the bad 
guys and that counterintelligence will be a strong, very 
integral part of what you do in your position. That is one 
reason that I am excited about your appointment to this 
position and hope that you can continue to assure us, as 
Members of this committee, that--I think counterintelligence is 
just as important as is outright intelligence gathering. I 
would like to see the Department be very actively engaged in 
the, kind of, intelligence process. So I thank you for that.
    Madame Chair, I will yield back the rest of my time. I have 
other questions that I would like to submit and ask unanimous 
consent that we----
    Mr. Johnson. Madame Chair, may I just follow up with the 
gentleman?
    You can be assured that the Secretary is aware, you know, 
and she has been involved in conversations on that topic.
    I am sure you are also aware the DNI just released the 
national intelligence strategy that addresses that very topic. 
The performance objectives that are being built fall well 
within the national intelligence strategy, along with the 
priorities of the Secretary.
    So I just want to clarify that, sir.
    Mr. Broun. Thank you, Mr. Johnson.
    I yield back, Madame Chair.
    Ms. Harman. Thank you.
    Without objection, questions can be submitted for the 
record.
    I assume, Mr. Johnson, you would have no objection to 
answering them? Written questions, I am talking about.
    Mr. Johnson. I would look forward to them, ma'am.
    Ms. Harman. Thank you.
    Ms. Kirkpatrick of Arizona is now recognized for 5 minutes.
    Ms. Kirkpatrick. Thank you, Madame Chair.
    Mr. Johnson, I am pleased to hear that we are making 
progress in the deployment of the intelligence officers. While 
45 people sounds like a lot, my question is, first, is that 
enough to cover our huge country, including our island State of 
Hawaii, and provide adequate protection for our border States 
and our coastal States, both north, south, east, and west?
    Mr. Johnson. I believe we need to do more in that regard.
    I just flipped to a chart here to try to give you some more 
definitive answers. Currently, we have 45 officers on-board, in 
place, which I think really is more than where we anticipated 
to be. That is because of due diligence of the State and Local 
Program Office. In processing are another 17.
    So we are doing well, but I don't believe it is enough, you 
know, in light of what the Secretary's goal is, to support 
State and local and the fusion centers. Whether or not it is 
through analytical capability or an operational capability or 
really working with our State, local, and Tribal, particularly 
the border States down in Arizona, New Mexico, or the EPIC.
    You know, I am happy to say that we have more analysts 
assigned to the EPIC, where Art Doty is working. I still have 
yet to get down there. I have been wanting to get down there to 
thank Art and also Tom Shelton, with everything that they are 
doing. They are responsible and they are providing an overall-
arching collaborative environment with intelligence with Mr. 
Burson and everything that he is trying to accomplish.
    So that was a long answer to a short answer that should 
have said we need to identify more personnel to get into the 
field to support our partners. That is a goal that I have, to 
do exactly that.
    Ms. Kirkpatrick. I&A is the lead Federal agency interfacing 
with the State, local, and Tribal law enforcement. However, 
many police departments around the country, particularly in the 
large, rural districts like mine, are still unaware of what I&A 
is and how it can be a useful tool.
    What are you doing to reach out to the small and rural 
police departments and ensure that they understand how to work 
with DHS? What can I do to help facilitate this?
    Mr. Johnson. Certainly. Hopefully, I will be going to the 
International Association of Chiefs of Police meeting, starting 
on October 2, I hope. I plan on visiting a number of venues, to 
include the Homeland Security Committee, meet with Jim McMahon; 
meet with Russ Lane, who comes from a small State and a small 
agency. He is the current president of the IACP.
    We met with the major city chiefs--I know Chuck DeWitt is 
here, and Tom Frazier, Bill Bratton and other individuals, to 
make sure that message gets out. Because you are right, we need 
to get the message out.
    So I actually co-signed a letter with Mr. Ron Ruecker, the 
assistant director for the Federal Bureau of Investigation, to 
the president of the small agencies chiefs of police. That has 
been passed to Mr. Ron Brooks and also Mr. Russ Porter to get 
to the fusion centers to start that dialogue, so the small 
agencies, when they say, ``Hey, how is your fusion center 
doing?'' they won't say, ``What is a fusion center?'' They will 
at least know what it is and hopefully see the value added that 
the fusion centers contribute, that we need to contribute to 
the fusion centers our value added. Then, once that information 
and that structure starts, that process will improve. It needs 
to be greatly improved, in fact.
    Ms. Kirkpatrick. Well, please know that I support your 
efforts. If there is anything I can do to be helpful in that 
regard, don't hesitate to let me know.
    Thank you, Madame Chair. I yield back my time. I finished 
in less than 5 minutes.
    Ms. Harman. Thank you very much.
    You just got an offer from a former prosecutor, by the way. 
So that is good. You are racking up a lot of help here.
    The Chair now yields 5 minutes to Mr. Dent of Pennsylvania.
    Mr. Dent. Thanks, Madame Chair.
    Mr. Johnson, welcome.
    In a previous testimony, you had indicated that you would 
be working closely with the FBI, the National Counter Terrorism 
Center, and other intelligence community members to clearly 
define responsibilities for the dissemination of intelligence 
products to our State and local customers.
    The question I have is, have you reached any agreements at 
this time?
    Mr. Johnson. It is interesting that you ask. You know, that 
dialogue has been occurring, but the Secretary is now involved, 
just to make certain that the roles and responsibilities are 
well-established, so, for example, during a time of stress, 
things don't break down, that it is more of a memorized type of 
activity, that it doesn't have to be made up as we go along.
    But personally, yes, I have reached out, you know, to Ron 
Ruecker. I mentioned having a meeting with him on a regular 
basis. We are going to be meeting out at the IACP, the 
International Association of Chiefs of Police, with the 
Criminal Intelligence Coordinating Council. I meet with Russ 
Travers from the National Counter Terrorism Center, as it 
relates to roles and responsibilities----
    Mr. Dent. On that point, specifically, can you say what 
I&A's responsibilities are going to be, as opposed to FBI and 
the National Counter Terrorism Center?
    Mr. Johnson. Sure. The National Counter Terrorism Center is 
the epicenter for, really, the development and analysis of 
information regarding the counterterrorism. That information is 
then passed to us and also the Federal Bureau of Investigation 
for passing to our State, local, and Tribal partners.
    Our specific role in that responsibility is to empower and 
pass that information and maybe add a little bit more context 
to it through our deployed State and local employees at I&A, 
and then get that to the fusion centers. The FBI's role is to 
work with the joint terrorism task forces, as it relates to the 
investigative aspects of it.
    So ours is to more inform, aware, indicators and warnings, 
making certain that they are taking the protective measures, 
working with Under Secretary Rand Beers, you know, as it 
relates to what the critical infrastructures are concerned.
    So I believe that our role within I&A is pretty clear, and 
I am reinforcing it on a regular basis.
    Mr. Dent. Now, one other quick follow-up question. I have 
to go vote. But you are the executive agent for the 
Intelligence Threat Assessment Coordination Group, ITACG, at 
the NCTC. The ITACG detail reviews intelligence community 
products in an effort to add relevance for State and local 
customers.
    Do you have the authority to require changes to 
intelligence community products to make them more useable for 
the various local customers?
    Mr. Johnson. That is one I would have to get back to you 
on. But working with the ITACG, they influence, they inform, 
they are part of the production process of the CIA, so they are 
in it at the very beginning of the production process. Same 
thing with I&A, they----
    Mr. Dent. Is their role more advisory then?
    Mr. Johnson. The NCTC oversees the operational day-to-day 
activities of the ITACG. But the Secretary of Homeland Security 
is responsible for the whole, overall program and its 
effectiveness. I am the person responsible for that.
    Mr. Dent. Can you take classified materials and then 
sanitize them and disseminate them?
    Mr. Johnson. We take classified documents and then ask the 
creators of those documents to create tear lines from ``TS'' to 
``secret'' or ``secret'' to ``unclassified.'' We have had 
success on it. It needs to be improved, but we are doing it, we 
are exercising it. In fact, we are doing it on a more frequent 
basis.
    Mr. Dent. Thank you.
    Out of respect for time, I will yield back.
    Ms. Harman. Thank you, Mr. Dent.
    I would just point out to our Members and this audience 
that this subcommittee authored legislation on 
overclassification, which has passed the House twice, and there 
is some optimistic news about some Senate action on a variation 
of that. But it would help Mr. Johnson get products to those in 
need, because there would be a reduction of overclassification 
and there would be portion marking of documents. That means 
that most of the documents would be unclassified, and it would 
be much easier for him to do what he needs to do.
    I now yield to Mr. Himes for 5 minutes of questions. There 
is a vote on the floor. There will be two votes. I think you 
will get all your time in.
    I want to suggest that, at the conclusion of his questions, 
we adjourn this hearing. There just are so many other things 
this morning, that I think it would be difficult to continue. 
Is there any objection to that?
    Okay.
    Five minutes.
    Mr. Himes. Thank you, Madame Chair.
    Mr. Johnson, thanks very much for coming before this 
committee. I am excited, based on your testimony, for the 
progress you appear to be making in a challenging role.
    I would like to devote probably not the full 5 minutes but 
a couple of minutes of my time today to a topic which actually 
hasn't been addressed, which is the collection of intelligence 
and your evaluation thereof.
    We have lots of characterizations of dissemination up to 
the Secretary, the other agencies, through the fusion centers. 
I wonder if you could take a minute to talk structurally about 
what you see in terms of your ability with respect to 
collection. You did make mention of 192 trained intelligence 
people.
    Can you take a minute or so and characterize what you see 
as your collection capabilities and then maybe 2 minutes to 
talk about the strengths and weaknesses that you perceive 
therein?
    Mr. Johnson. Certainly.
    First and foremost, there needs to be a structure about 
what is important, what is of interest to not only the Federal 
Government but our State and local, Tribal partners. So it is 
really a two-way flow as it relates to the requirements.
    So, for example, a northern border State like New York, as 
it relates to border smuggling, their requirement would be for 
information from the intelligence community about individuals 
who may try to exploit the border and get that information to 
them so that IC would collect that information, pass it through 
I&A, and get it to the New York State Intelligence Center in 
Albany so they could be better prepared, better aware of what 
they need to do to prevent that from occurring.
    You know, from the flip side of that, the information 
requirements of I&A, you know, are those individuals who may be 
carrying out a terrorist attack within the shores of the United 
States, or, for the intelligence community, people within the 
United States who, through criminal activity, are communicating 
with individuals overseas. So that would be an information 
requirement set upon them, as it relates to things that we 
would be interested in.
    So that is enabled through the dialogue of the forward-
deployed intelligence analysis personnel like an individual 
like Kerri Morgan, who I spoke to this morning, up at the New 
York State Intelligence Center, that she is aware. They pass 
that information, that they interact with an individual who has 
chemicals and who may have photographs or drawings of something 
occurring out in Los Angeles, that that information needs to be 
shared with the I&A analyst, which it is. Then it needs to be 
input and then shared with the Federal Bureau of Investigation. 
Then, if there is a nexus to overseas, that needs to be shared 
with IC, the intelligence community.
    So that is the end game, where we need to go. Are we there 
yet? No, we are not there. But I believe that we have the 
structures, the knowledge, and the wherewithal and the 
partnerships to really build towards that effort.
    Mr. Himes. Thank you.
    So, to the second part of my question, which was your 
analysis, your perceived strengths and weaknesses of your own 
native collection capability, what do you see as going well and 
what do you see of concern?
    Mr. Johnson. I believe we have a good foundation. But I 
believe we need to clarify those information needs and 
requirements and communicate them in a more consistent and 
regular basis to our partners at both ends of the spectrum, the 
IC and also our domestic partners in the field, and then really 
build, according to civil liberties and civil rights, the 
ability to glean that information and share that information in 
a lawful way to make sure that that information gets into the 
hands of the people that need it most.
    So the structure is there, the foundation is there, the 
knowledge is there. But, really, I believe the processes need 
to be matured, sustained. Most importantly, the people who are 
providing us the information need to see a return on their 
investment and the value added, that the contribution that they 
made really made a difference in what they are trying to do.
    Mr. Himes. Are you satisfied with the mechanism whereby the 
tens of thousands of eyes and ears that you have potentially 
got access, local law enforcement, that they are being trained 
and kept up to speed on what to look for? Are you happy with 
the infrastructure that allows you to convey to them what they 
should be looking for?
    Mr. Johnson. I am very pleased with the relationships that 
we have with the various law enforcement agencies and the 
people that I interact with about the need to do that. You 
know, the major city chiefs, the IACP, the national county 
sheriffs and the major county sheriffs, they all understand and 
get at the needs. But working with them, you know, we all 
recognize that we need to improve.
    So I am happy about the relationships, I am satisfied about 
the relationships. We know where we are, and we know where we 
need to go. Working with them, you know, very closely, we are 
going to develop a plan and get that to them.
    Mr. Himes. Thank you. Thank you, Mr. Johnson.
    Madame Chair, 5 minutes exactly.
    Ms. Harman. Yes, precisely.
    Thank you, Mr. Johnson, again for your testimony and for 
helping to make real progress on two fronts. One is effective 
two-way sharing, and the other is protection of privacy and 
civil liberties. We will be watching closely. We are your 
partners, not your adversaries.
    There are just a few minutes in this vote, so I am 
adjourning the hearing.
    You will be receiving some questions in writing from some 
of the Members. Again, I thank you for your testimony.
    Having no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:00 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
